Mark A. Perry
Direct: +1 202.887.3667
Fax: +1 202.530.9696
MPerry@gibsondunn.com

June 7, 2021
VIA ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Biogen MA Inc. v. EMD Serono, Inc., No. 20-1604

Dear Mr. Harris:
I am counsel of record for respondents EMD Serono, Inc. and Pfizer Inc. in
the above-captioned case. The petition for a writ of certiorari in this case was
docketed on May 18, 2021, and the response is currently due on June 17, 2021.
Pursuant to Supreme Court Rule 30.4, I respectfully request a 30-day extension
of time, to and including July 19, 2021 (July 17 is a Saturday), within which to
file a response.
This extension is requested to allow adequate time to prepare a response to
the petition in light of several significant professional obligations I have in
matters pending before this Court and other courts, as well as to consider and, if
necessary, respond to any briefs of amici curiae filed in this case.
Respectfully submitted,

Mark A. Perry

cc:

Jeffrey A. Lamken
Counsel for Petitioner

